No.

IN THE

>upremc Court of tl)e SBniteb S>tate^
DAVID A. BRIDGEWATER,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner David A. Bridgewater, pursuant to Supreme Court Rule 39, asks

leave to file the attached Petition for a Writ of Certiorari without payment of costs
and to proceed in forma pauperis.
On February 7, 2019, the district court appointed counsel for Mr.

Bridgewater pursuant to the Criminal Justice Act of 1964 (CJA), 18 U.S.C. ยง 3006A.
The undersigned counsel continued to represent Mr. Bridgewater pursuant to the

CJA in the Seventh Circuit Court of Appeals.

WHEREFORE, Petitioner Bridgewater, by and through undersigned counsel,
respectfully prays for leave to proceed in the Supreme Court of the United States in
forma pauperis.

DATED this 24th day of September 2021.
Respectfully submitted,

ANGELA J. H?L
Counsel of Record
Office of the Federal
Public Defender
Southern District of Illinois
401 West Main Street
Benton, Illinois 62812

(618) 435-2552
angela_hill@fd.org

Counsel for Petitioner

